September 28, 2001

LAWRENCE L. LUM, II
MANAGER, STAMP ACQUISITION AND DISTRIBUTION

PHILLIP R. BALDWIN
MANAGER, HEADQUARTERS PURCHASING

ANDRE D. BOYKINS
MANAGER, STAMP DISTRIBUTION

SUBJECT: Audit Report – Stamp Printing Quantities
         (Report Number MK-AR-01-002)

This report presents the results of our audit of the Postal Service’s stamp printing
quantities (Project Number 00RA055RG000). The report responds to a self-initiated
audit by the Office of Inspector General (OIG). Our audit objectives were to determine
whether the Postal Service printed the appropriate quantity of stamps to meet their
customer needs and whether saleable stamps were being destroyed. We accomplished
our objectives by reviewing the stamp acquisition and destruction processes.

The audit revealed that fiscal year (FY) 2001 quantities scheduled for printing at the
Bureau of Engraving and Printing will exceed demand by 5.2 billion stamps and stamp
printing requirements for FY 2002 will exceed demand by 3.5 billion stamps. In
addition, we identified about 462 million saleable stamps, with a retail value of
$99.4 million at the Dulles Stamp Services Center that were destroyed instead of being
returned to inventory for redistribution during FY 2000. The cost to produce these
stamps was $1.4 million, which we consider to be unrecoverable costs that could have
been avoided.

We recommended Postal Service management reduce the FY 2002 overall stamp
quantities by approximately 3.5 billion stamps. Management agreed with the
recommendation which would allow them flexibility in responding to inventory needs for
an expected rate change to occur in FY 2003. As a result, approximately $10 million in
printing costs will be saved in FY 2002.
We also recommended Postal Service management establish future stamp printing
requirements based on forecasted shipments to Postal Service retail units and include
year-end balances at the Stamp Distribution Offices when estimating the stamp printing
requirement for the Bureau of Engraving and Printing. In addition, we recommended
Postal Service management establish policies and procedures at the Dulles Stamp
Services Center that ensure excess stamps are returned to inventory for redistribution.
Management agreed with our recommendations and corrective actions planned by
management meet the intent of our recommendations. Management’s comments and
our evaluation of these comments are included in the report.

The OIG considers recommendations 1 through 4 significant and, therefore, requires
OIG concurrence before closure. Consequently, OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the follow-up tracking system until OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact, Larry Chisley, director, at (703) 248-2100, or
me, at (703) 248-2300.



Robert L. Emmons
Assistant Inspector General
 for eBusiness

Attachment

cc: Deborah K. Willhite
    Keith Strange
    Catherine V. Caggiano
    John R. Gunnels
Stamp Printing Quantities	                                MK-AR-01-002




                             TABLE OF CONTENTS

Executive Summary
                                            i

Part I


Introduction	                                                 1


   Background                                                 1

   Objectives, Scope, and Methodology                         1

   Prior Audit Coverage                                       2


Part II


Audit Results	                                                3


   Stamp Printing Quantities                                  3

   Recommendations                                            5

   Management’s Comments                                      5

   Evaluation of Management’s Comments                        5


   Stamps Processed for Destruction                           6

   Recommendations                                            7

   Management’s Comments                                      7

   Evaluation of Management’s Comments                        7


Appendix A.	 Forecasted Excess Stamps                         9


Appendix B.	 Weighted Average Printing Cost                  11

             of Stamps Processed for Destruction


Appendix C.	 Management Comments                             12


Appendix D.	 Revised Management Comments                     17





                                 Restricted Information
Stamp Printing Quantities	                                                                         MK-AR-01-002



                                      EXECUTIVE SUMMARY
    Introduction                  The Office of Inspector General (OIG) initiated this audit to
                                  determine whether the Postal Service printed the
                                  appropriate quantity of stamps to meet customer needs.
                                  This is one of two reports we plan to issue on stamp printing
                                  quantities, and focuses on quantities printed by the Bureau
                                  of Engraving and Printing and stamps destroyed at the
                                  Dulles Stamp Services Center. Our objectives were to
                                  determine (1) whether stamp quantities were appropriate to
                                  meet customer needs, and (2) whether saleable stamps
                                  were being destroyed.

    Results in Brief
             The audit revealed that quantities scheduled for printing at
                                  the Bureau of Engraving and Printing will exceed demand
                                  by about 5.2 billion and 3.5 billion for fiscal years
                                  (FYs) 2001 and 2002, respectively. Stamp printing
                                  quantities were overstated because the printer’s guaranteed
                                  stamp printing requirement was not based on forecasted
                                  customer demand. Postal Service management could
                                  reduce the FY 2002 stamp printing costs by $10 million.

                                  In addition, we identified approximately 462 million saleable1
                                  stamps returned as excess and processed for destruction at
                                  the Dulles Stamp Services Center during FY 2000. Stamps
                                  returned to the Dulles Stamp Services Center are destroyed
                                  regardless of the reasons why they were returned.
                                  However, we believe stamps identified and returned as
                                  excess should be returned to inventory for redistribution.
                                  Saleable stamps destroyed at the Dulles Stamp Services
                                  Center during FY 2000 had an estimated printing cost of
                                  $1.4 million and a retail value of about $99.4 million.

    Summary of	                   We recommended that the manager, Stamp Acquisition and
    Recommendations	              Distribution reduce the FY 2002 overall stamp quantities by
                                  approximately 3.5 billion stamps. Also, the manager, Stamp
                                  Acquisition and Distribution, should establish future stamp
                                  printing requirements based on forecasted shipments to




1
 Saleable stamps are stamps that have not been withdrawn from sale at Postal Service retail units, redeemed by the
customer, or damaged.



                                                        i
                                             Restricted Information
Stamp Printing Quantities                                                                          MK-AR-01-002




                                  Postal Service retail units and include year-end balances at
                                  the Stamp Distribution Offices when estimating the stamp
                                  printing requirement at the Bureau of Engraving and
                                  Printing.

                                  In addition, the manager, Stamp Distribution, should
                                  establish policies and procedures at the Dulles Stamp
                                  Services Center that ensure excess stamps are returned to
                                  inventory for redistribution.

                                  Finally, we recommended that the manager, Stamp
                                  Distribution, record stamp item numbers, reason codes, and
                                  quantities of stamps processed for destruction.

    Summary of                    Management agreed with our findings and
    Management’s                  recommendations. Management will reduce the overall
    Comments                      FY 2002 stamp quantities by approximately 3.5 billion
                                  stamps. Stamp Acquisition and Distribution instituted a
                                  system to forecast future stamp quantities by analyzing
                                  historical shipment data and First-Class Mail volume
                                  variances. They have implemented measures to ensure
                                  that excess saleable stamps will be returned to inventory for
                                  redistribution and will test the effectiveness of recording
                                  stamps processed for destruction by stamp item numbers,
                                  reason codes, and quantities at the Dulles Stamp Services
                                  Center. Management’s comments, in their entirety, are
                                  included in Appendices C and D of this report.

    Overall Evaluation of         Management’s comments were responsive to our findings

    Management’s                  and recommendations. The overall reduction in the

    Comments                      FY 2002 Stamp Program will minimize the amount of

                                  excess stamps to be printed by the Bureau of Engraving
                                  and Printing during FY 2002. Also, the implementation of a
                                  forecasting system based on historical shipment data and
                                  First-Class Mail volume variances will assist management in
                                  identifying their stamp printing format2 requirements for
                                  FY 2002.

                                  Management’s planned actions will help ensure excess
                                  saleable stamps are returned to inventory and that stamp

2
 Formats are defined as types and quantities of stamps, which include gummed, pressure sensitive adhesive, coils,
booklets, and sheets.




                                                        ii
                                             Restricted Information
Stamp Printing Quantities                                                   MK-AR-01-002



                            item numbers, reason codes, and quantities will be recorded
                            when stamps are processed for destruction at the Dulles
                            Stamp Services Center.




                                              iii
                                    Restricted Information
Stamp Printing Quantities                                                                           MK-AR-01-002



                                           INTRODUCTION
    Background                       The Postal Service purchases an average of 40 billion First-
                                     Class postage stamps annually through printing contracts, at
                                     an average cost of $125 million. The Bureau of Engraving
                                     and Printing printed approximately 17 billion of the 40 billion
                                     First-Class postage stamps in fiscal years (FYs) 1999 and
                                     2000.3 The Bureau of Engraving and Printing prints
                                     definitive stamps in large quantities. Definitive stamps are
                                     regular postage stamps that are issued in unlimited
                                     quantities and remain on sale for an indefinite period.

                                     The Stamp Acquisition and Distribution Office establishes
                                     stamp printing quantities by format and the distribution of
                                     stamps to Postal Service retail units. Personnel from the
                                     Stamp Acquisition and Distribution Office determine the
                                     quantity of stamps to be printed at the Bureau of Engraving
                                     and Printing by identifying past printing requirements and
                                     monitoring stamp requisitions from Postal Service retail
                                     units, Stamp Distribution Offices, and Stamp Services
                                     Centers.

                                     The inventory system at the Stamp Services Centers has
                                     the capability to track stamp returns from Postal Service
                                     retail units and destruction quantities by stamp item number.
                                     Postal Service retail units return excess, damaged, and
                                     obsolete stamp stock to the Stamp Services Centers using
                                     Accountable Items Returned to Stamp Distribution Network
                                     forms.4

    Objectives, Scope, and           Our audit objectives were to determine (1) whether the
    Methodology                      Postal Service printed an appropriate quantity of stamps to
                                     meet anticipated customer needs, and (2) whether saleable
                                     stamps were being destroyed.

                                     In reviewing whether the Postal Service printed the
                                     appropriate quantity of stamps, we interviewed Postal
                                     Service officials in headquarters Stamp Acquisition and

3
  Four private sector printers, Ashton Potter, Avery Dennison Security Printing division, Banknote Corporation of
America, and Sennett Security Products produce the remaining First-Class postage stamps for the Postal Service.
4
 Accountable Items Returned to Stamp Distribution Network forms contain pertinent data such as the reason codes
that describe the purpose of the return and the stamp item number that identifies the description, format, and
denomination of stamps. The reason codes for the return of stamps are: (1) removed from sale; (2) redeemed by
customer; (3) damaged; (4) overstock (excess); (5) ordered in error; (6) recalled; (7) redeemed United States
international reply coupon; (8) exchanged foreign international reply coupons, and (9) other.



                                                        1
                                             Restricted Information
Stamp Printing Quantities                                                     MK-AR-01-002




                            Distribution, and officials at the Bureau of Engraving and
                            Printing.

                            We obtained National Item Inventory Reports to assess the
                            ending inventory balances at the Stamp Distribution Offices
                            and the Stamp Services Centers for FYs 1998, 1999, and
                            2000. We also obtained the Stamp Stock Status Reports
                            from the Bureau of Engraving and Printing to analyze
                            printing quantities of stamps produced during FYs 1999 and
                            2000.

                            To evaluate the stamp destruction process, we reviewed
                            and analyzed the Accountable Items Returned to Stamp
                            Distribution Network forms for FY 2000 at the Dulles Stamp
                            Services Center.

                            We researched Postal Bulletins from 1995 to 2000 to
                            compile a listing of stamps withdrawn from sale at Postal
                            Service retail units, philatelic centers, and the Stamp
                            Fulfillment Center. We obtained compilations of FY 1998
                            through 2000 stamp printing invoices from Stamp
                            Acquisition officials to compute the average printing costs for
                            saleable postage stock recorded for destruction. We also
                            obtained Destruction Stock Reports from the Bureau of
                            Engraving and Printing to determine the quantities of 32-
                            cent stamps destroyed at the Bureau of Engraving and
                            Printing during FY 1999.

                            This audit was conducted from May 2000 through
                            September 2001 in accordance with generally accepted
                            government auditing standards and included such tests of
                            internal controls, as were considered necessary under the
                            circumstances. We discussed our conclusions and
                            recommendations with appropriate management officials
                            and included their comments, where appropriate.

 Prior Audit Coverage       We did not identify any prior audits or reviews related to the
                            objective of this audit.




                                             2
                                  Restricted Information
Stamp Printing Quantities                                                            MK-AR-01-002



                                    AUDIT RESULTS
 Stamp Printing              The FY 2002 printing schedule for the Bureau of Engraving
 Quantities                  and Printing requires the Postal Service to purchase
                             12 billion stamps at a cost of approximately $ 39.6 million.
                             However, the printing requirement will exceed demand by
                             3.5 billion stamps. The FY 2001 printing requirement of
                             15 billion stamps exceeded demand by 5.2 billion stamps.
                             An interagency agreement between the Postal Service and
                             the Bureau of Engraving and Printing requires the Postal
                             Service to purchase a predetermined number of stamps
                             each year ending in FY 2005.

                             The following chart represents FYs 2001 and 2002 printing
                             requirements at the Bureau of Engraving and Printing.

                                     Forecasted Excess Stamps at the
                                     Bureau of Engraving and Printing
                                                (in billions)
                                                                         FY       FY
                                                                        2001     2002
                            Stamp Printing Volume                        15.2     12.0
                            Excluding 33-cent Stamps Printed             (1.8)     0.0
                            Adjusted Stamp Printing Volume               13.4     12.0

                            Forecasted Printing Requirement*            (8.2) (8.5)

                            Excess Stamps                                 5.2   3.5
                            *Forecasted Printing Requirement includes Forecasted
                            Demand less Reduction in Beginning Inventory. See
                            Appendix A for Details.




                             Stamp printing quantities were overstated because the
                             printer’s stamp printing requirement was not based on
                             forecasted demand from Postal Service retail units. To
                             determine the stamp quantities that were needed for
                             FY 2001 we identified the average number of stamps that
                             were ordered by Postal Service retail units for FYs 1999 and
                             2000. We also included the Postal Service forecasts of
                             First-Class Mail volume increases of 2.5 percent and
                             .9 percent for FYs 2000 and 2001, and increases due to the
                             anticipated rate change.




                                                3
                                     Restricted Information
Stamp Printing Quantities                                                                  MK-AR-01-002




                                      As a result, we estimated the Postal Service only needed to
                                      print about 8.2 billion stamps for FY 2001. However, the
                                      Bureau of Engraving and Printing was scheduled to print
                                      about 13.4 billion5 stamps for FY 2001. Consequently, the
                                      Postal Service purchased an excess of approximately
                                      5.2 billion stamps from the Bureau of Engraving and Printing
                                      in FY 2001.

                                      We estimate the FY 2002 stamp printing requirement for the
                                      Bureau of Engraving and Printing to be approximately
                                      6.3 billion stamps. This number is based on the forecasted
                                      number of stamps ordered by Postal Service units during
                                      FY 2001, forecasted number of stamps that will be on hand
                                      at the beginning of FY 2002 and the forecasted increases in
                                      First-Class Mail volume.

                                      Postal management requested that we include in our
                                      calculations a forecasted year-end inventory balance at the
                                      Stamp Distribution Offices that would supply postal retail
                                      facilities for 3 months into FY 2003 for an expected rate
                                      change. We agreed upon a 2.2 billion stamps year-end
                                      inventory that would be needed to supply Postal Service
                                      retail facilities for a transition into a new rate-change. We
                                      recomputed the FY 2002 stamp printing requirement for the
                                      Bureau of Engraving and Printing to be approximately
                                      8.5 billion stamps (6.3 billion stamps plus the 2.2 billion
                                      stamps)

                                      The Postal Service cannot reduce its printing requirement at
                                      the Bureau of Engraving and Printing for FY 2002 because
                                      of its interagency agreement with the Bureau of Engraving
                                      and Printing. The Postal Service has more flexibility to
                                      reduce stamps quantities printed by private sector printers
                                      because these printers have lower minimum printing
                                      requirements. With a rate change expected to occur in
                                      FY 2003, the Postal Service could curtail quantities of the
                                      current rate stamps for the production of new rate stamps.
                                      Therefore, the Postal Service can reduce its overall
                                      FY 2002 stamp printing program by 3.5 billion stamps for a
                                      savings of approximately $10 million.



5
    The figure does not include 1.8 billion 33-cent stamps that were printed in FY 2001.



                                                            4
                                                 Restricted Information
Stamp Printing Quantities	                                                    MK-AR-01-002




 Recommendation              We recommend the manager, Stamp Acquisition and
                             Distribution:

                             1.   Reduce the FY 2002 overall stamp program by
                                  approximately 3.5 billion stamps.

 Management’s                Management agreed with our recommendation to reduce
 Comments                    the overall FY 2002 stamp program including quantities of
                             both the Bureau of Engraving and Printing and the private
                             sector printers.

 Evaluation of               Management’s comments were responsive and corrective
 Management’s                actions planned by management meet the intent of our
 Comments                    recommendation.

 Recommendation
             2.	 Base future stamp printing quantities on forecasted
                                 stamp shipments to Postal Service retail units,
                                 forecasted increases or decreases in mail volume, and
                                 forecasted year-end inventory balances at the Stamp
                                 Distribution Offices, Stamp Services Centers, and the
                                 Bureau of Engraving and Printing.

 Management’s                Management agreed with our recommendation and stated
 Comments                    they have instituted a forecasting system based on this
                             principle.

 Evaluation of               Management’s comments are responsive to our
 Management’s                recommendation and management has implemented a
 Comments                    system to examine production and inventory data.




                                                5
                                     Restricted Information
Stamp Printing Quantities	                                                                          MK-AR-01-002




    Stamps Processed	              Approximately 462 million excess saleable6 stamps with a
    for Destruction	               retail value of about $99.4 million were destroyed at the
                                   Dulles Stamp Services Center during FY 2000. Printing
                                   costs for stamps destroyed at the Dulles Stamp Services
                                   Center totaled approximately $1.4 million. Stamps are
                                   returned by Postal Service retail units for a variety of
                                   reasons, including stamps being withdrawn from sale,
                                   damaged, or excess saleable stock. Excess stamp stock
                                   destroyed at the Dulles Stamp Services Center accounted
                                   for 43 percent of stamps returned in FY 2000.

                                   The following table illustrates the percentage of saleable
                                   stamps processed for destruction at the Dulles Stamp
                                   Services Center in FY 2000.


                                              Stamps Processed for Destruction




                                                                          43%            Saleable
                                          57%                                            Non-Saleable




                                   Contrary to Postal Service procedures, stamps returned to
                                   the Dulles Stamp Services Center7were processed for
                                   destruction, regardless of the reasons they are returned.
                                   Handbook F-1, Post Office Accounting Procedures,
                                   Section 437.1 states that offices within the Stamp
                                   Distribution Office Service area may return saleable stock
                                   for redistribution and that the Stamp Distribution Office
                                   officials must enter the saleable stock in its inventory
                                   system. However, when saleable stamps were returned to
                                   the Dulles Stamp Service Center, officials only recorded the
                                   dollar value of the returned saleable stamps as redeemed
                                   stamp stock. Stamps were then boxed and stored on
                                   pallets until they were destroyed. Saleable stamps returned

6
  Saleable stamps are stamps that have not been withdrawn from sale at Postal Service retail units, redeemed by

customers, or damaged.

7
  We calculated an average printing cost of $2.95 per thousand stamps. See Appendix B for additional information.




                                                         6
                                              Restricted Information
Stamp Printing Quantities                                                       MK-AR-01-002



                            as excess should be redistributed to fill stamp orders from
                            Postal Service retail units. Redistributed excess stamps
                            would assist in reducing the number of stamps needed and
                            printing costs. By destroying all of the saleable stamps
                            returned to the Dulles Stamp Service Center the Postal
                            Service unnecessarily eliminated valuable stamp inventory,
                            which cost $1.4 million to produce. As a result, we consider
                            the $1.4 million as unrecoverable costs that could have
                            been avoided.

                            In addition, individual stamp item numbers are not recorded
                            when stamps are processed for destruction. As a result,
                            Postal Service officials cannot easily identify the types of
                            stamps that are being returned and the Postal Service retail
                            units that are returning the stamps. The recording of
                            individual stamp item numbers would allow Postal Service
                            officials to identify the type of stamps that were being
                            returned. Officials would then have another indicator that
                            would help identify potential excess stamp stock and identify
                            the type of stamps that were not selling and geographical
                            areas affected.

 Recommendation             We recommend the manager, Stamp Distribution, should:

                            3.	 Establish policies to ensure excess saleable stamps are
                                returned to inventory for redistribution in accordance with
                                Handbook F-1, Post Office Accounting Procedures.

 Management’s               Management agreed with our recommendation, and stated
 Comments                   that during the third quarter of FY 2000, the Dulles, Virginia
                            Stamp Service Center began enforcing the established
                            policy that excess saleable stamps be returned to inventory
                            and redistributed as requested by postal retail facilities.

 Evaluation of              Management’s comments are responsive to our
 Management’s               recommendation. Management will start enforcing existing
 Comments                   policy and ensure excess saleable stamps are returned to
                            inventory.

 Recommendation             4. Record stamp item numbers, reason codes, and
                               quantities of stamps processed for destruction.




                                               7
                                    Restricted Information
Stamp Printing Quantities                                                   MK-AR-01-002




 Management’s               Management agreed with our recommendation and stated
 Comments                   that a computer system, Stamp Service System, captured
                            the data we recommended, but has not been implemented
                            at three sites, including Dulles, Virginia. However,
                            management stated they would incorporate the recording of
                            stamp item numbers, reason codes, and quantities of
                            stamps when stamps are processed for destruction at the
                            Dulles Stamp Service Center in FY 2002 and will evaluate
                            the impact of this process.

 Evaluation of              Management’s comments are responsive to our
 Management’s               recommendation. Management will incorporate the
 Comments                   recording of stamp item numbers, reason codes, and
                            quantities of stamps when stamps are processed for
                            destruction at the Dulles Stamp Service Center in FY 2002
                            and will evaluate the impact of this process.




                                               8
                                    Restricted Information
Stamp Printing Quantities	                                                     MK-AR-01-002



                                     APPENDIX A


                             FORECASTED EXCESS STAMPS

Of the 15.2 billion stamps scheduled to be printed at the Bureau of Engraving and
Printing in FY 2001, we reduced the scheduled quantity by the 1.8 billion 33-cent
stamps that were printed prior to the rate-change that occurred January 7, 2001. We
then compared the planned printing of the 13.4 billion stamps to our forecast of FY 2001
requirements, to determine the effect of any excess printing on the required printing
quantities for FY 2002.

We calculated that 8.2 billion stamps, rather than 13.4 billion stamps, was the required
printing quantity of 34-cent, bulk-mail, nondenominated and 1-cent stamps for FY 2001.
Our methodology, which was based on an analysis of orders of similar formats in
FYs 1999 and 2000, uses the average quantities over a 2-year period. The
methodology is summarized below:

    •	 The FY 1999 stamp orders totaling 5.4 billion stamps were divided by the number
       of months that each stamp design was issued during the fiscal year. This gave
       an average monthly order total of 849 million stamps. We inflated this quantity to
       accommodate FY 2001 requirements using the mail volume growth factors
       provided by the Postal Service: 1.025 and 1.009 for FYs 1999 and 2000
       respectively. This inflation resulted in a printing of 878 million stamps per month
       using an FY 1999 baseline.

    •	 The FY 2000 stamp orders were similarly adjusted to a monthly basis and
       inflated, by the 1.009 multiplier only, to FY 2001 quantities. That calculation
       resulted in a total of 904 million monthly stamp orders using an FY 2000
       baseline.

    •	 For our FY 2001 forecast, we used the arithmetic average of the monthly
       FY 1999 result and the monthly FY 2000 result. We calculated the annual
       quantity for FY 2001 by multiplying the monthly average quantity for each stamp
       type by the number of months in FY 2001 that each type would be ordered. The
       calculation resulted in an FY 2001 forecast of 6.6 billion stamps.

    •	 We did not alter the number of nondenominated 34-cent stamps and 1-cent
       stamps because we assumed that all 2.7 billion such stamps would be shipped to
       Postal Service retail units to accommodate the transition to the rate change.

    •	 The resulting FY 2001 forecast order of 9.4 billion stamps is composed of
       6.6 billion 34-cent and bulk mail stamps plus 2.7 billion of nondenominated 34-
       cent and 1-cent stamps.




                                               9
                                    Restricted Information
Stamp Printing Quantities	                                                     MK-AR-01-002



    •	 We then reduced the 9.4 billion FY 2001 forecast by 1.2 billion stamps based on
       the beginning stamp inventory balances of FY 2001. We, therefore, calculate a
       required printing quantity for FY 2001 of 8.2 billion stamps.

The 13.4 billion postage stamps exceeded the above calculated requirement for
FY 2001 by 5.2 billion stamps. Since the production schedule for FY 2001 cannot be
reduced due to terms in the interagency agreement, we used the forecasts for FY 2001
to determine required printing quantities for FY 2002. The interagency agreement
between the Bureau of Engraving and Printing and the Postal Service currently states
that the minimum printing requirement for FY 2002 is 12 billion stamps.

We calculated that 8.5 billion stamps would be the required printing quantity for
FY 2002, as follows:

    •	 We assumed that all stamp formats, except the nondenominated stamp formats,
       would be reprinted for FY 2002. We allocated the 12 billion required minimum
       printing requirement based on the quantities that were scheduled for printing for
       FY 2001.

    •	 To account for mail volume growth, we applied the Postal Service volume growth
       factor to the FY 2001 quantities. Therefore, the FY 2002 forecast demand of
       11.5 billion stamps is equal to the monthly stamp orders of FY 2001 multiplied by
       12 months and then multiplied by 1.015 (1.5 percent) mail volume growth for
       FY 2001.

    •	    We reduced the FY 2002 forecast requirement of 11.5 billion stamps by the
         calculated beginning inventory balance of 5.2 billion stamps to forecast a
         required printing quantity for FY 2002 of 6.3 billion stamps.

    •	 We computed an ending inventory balance of 2.2 billion stamps at the Stamp
       Distribution Office, which is based on 3 months of forecasted usage of the 33-
       cent 100 coil format stamps.

    •	 Finally, we computed a required printing quantity for FY 2002 of 8.5 billion

       stamps (6.3 billion stamps plus 2.2 billion).


As a result, the FY 2002 minimum printing requirement at the Bureau of Engraving and
Printing, 12 billion stamps, would exceed new printing requirements by 3.5 billion
stamps.




                                              10
                                    Restricted Information
Stamp Printing Quantities	                                                                                           MK-AR-01-002



                                                       APPENDIX B

                   WEIGHTED AVERAGE PRINTING COST OF STAMPS
                         PROCESSED FOR DESTRUCTION

We computed an average printing cost of $2.85 for coil format8 stamps and an average
printing cost of $3.83 for noncoil format stamps, based on the average printing costs of
stamps printed in FYs 1998, 1999, and 2000. We calculated an overall weighted
average printing cost of $2.95. The overall weighted average printing cost is the sum of
the following:

       •	 The result of multiplying the average printing cost for coil format stamps by the
          percentage of stamps returned that were of the coil format.

       •	 The result of multiplying the average printing cost for noncoil format stamps by
          the percentage of stamps returned that were of the noncoil format.


                  Stamp                        Fraction of    Average       Weighted      Total
                 Format          Stamp         Total Stamp Printing  Cost    Average     Printing
                                                            (per thousand
                 Quantity       Quantity        Quantity       stamps)
                                                                          Printing Cost*  Cost
                 Noncoil       45,929,672                 0.10             $3.83               $0.38 $175,911
                 Coil         416,592,000                 0.90             $2.85               $2.57 $1,187,287
                 Total        462,521,672                                                      $2.95 $1,363,198
                 *Figures are the result of multiplying Average Printing Cost and Fraction of Total Stamp Quantity




8
    Stamps that are packaged into rolls or spirals are called coil formats.



                                                               11
                                                     Restricted Information
Stamp Printing Quantities                              MK-AR-01-002



                   APPENDIX C. MANAGEMENT’S COMMENTS




                                        12

                              Restricted Information
Stamp Printing Quantities                            MK-AR-01-002




                                      13

                            Restricted Information
Stamp Printing Quantities                            MK-AR-01-002




                                      14

                            Restricted Information
Stamp Printing Quantities                            MK-AR-01-002




                                      15

                            Restricted Information
Stamp Printing Quantities                            MK-AR-01-002




                                      16

                            Restricted Information
Stamp Printing Quantities                            MK-AR-01-002



      APPENDIX D: REVISED MANAGEMENT’S COMMENTS DATED
                        AUGUST 21, 2001




                                      17

                            Restricted Information
Stamp Printing Quantities                            MK-AR-01-002




                                      18

                            Restricted Information
Stamp Printing Quantities                               MK-AR-01-002



                      REVISED MANAGEMENT’S COMMENTS

                          DATED SEPTEMBER 24, 2001





                                         19

                               Restricted Information
